March 8, 2021
VIA E-Filing and U.S. Mail
Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, DC. 20543
Re:

Jade Thompson v. Marietta Education Association, et al., No. 20-1019

Dear Mr. Harris:
On behalf of Respondent Marietta Education Association, I respectfully move for a 30day extension of time, until April 30, 2021, to submit a response to the petition for certiorari in
this matter. This request is being made because I have deadlines to submit briefs in several other
cases during the time period at issue, and require additional time to prepare the response.
Counsel for the other Respondent supports this request for an extension. Counsel for Petitioner
has confirmed that Petitioner does not oppose the requested extension to April 30, 2021.
By copy of this letter, I am serving counsel for all parties by e-mail and U.S. mail.
Sincerely,

Scott A. Kronland
cc:

Andrew Michael Grossman, Baker & Hostetler LLP, 1050 Connecticut Avenue, N.W.,
Suite 1100, Washington, DC 20036, agrossman@bakerlaw.com
Nicole Marie Donovsky, Bricker & Eckler LLP, 100 S. Third Street, Columbus, OH.
43215, ndonovsky@bricker.com

